IN THE SUPREME COURT OF THE UNITED STATES
_______________
No. 20-222
GOLDMAN SACHS GROUP, INC., ET AL., PETITIONERS
v.
ARKANSAS TEACHER RETIREMENT SYSTEM, ET AL.
_______________
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
_______________
MOTION OF THE UNITED STATES FOR LEAVE TO
PARTICIPATE IN ORAL ARGUMENT AS AMICUS CURIAE
AND FOR DIVIDED ARGUMENT
_______________
Pursuant to Rules 28.4 and 28.7 of this Court, the Acting
Solicitor General, on behalf of the United States, respectfully
moves that the United States be granted leave to participate in
the oral argument in this case and that the United States be
allowed ten minutes of argument time.

The United States has filed

a brief as amicus curiae in support of neither party.

Petitioners

and respondents have consented to this motion, and each side has
agreed to cede five minutes of its argument time to the United
States.
This case presents two questions.

The first is whether a

2
defendant in a securities-fraud class action may rely on the nature
of the alleged misstatements in order to rebut the presumption of
classwide reliance recognized in Basic Inc. v. Levinson, 485 U.S.
224 (1988), by showing that those misstatements did not impact the
market price of the security.

The second is whether a defendant

seeking to rebut the Basic presumption by showing the absence of
price impact bears the burden of persuasion on that issue.
The United States has a substantial interest in the resolution
of both questions presented.
the

Securities

enforcement
securities

and

actions
laws,

While the Department of Justice and

Exchange
to

Commission

address

meritorious

(SEC)

violations

private

regularly
of

the

securities-fraud

bring

federal
suits

(including class actions) are an essential complement to those
enforcement efforts and help to ensure compliance with federal
statutory requirements as well as regulations promulgated by the
SEC.
The United States has previously presented oral argument as
amicus curiae in cases involving the administration of the federal
securities laws.

E.g., Halliburton Co. v. Erica P. John Fund,

Inc., 573 U.S. 258 (2014); Amgen Inc. v. Connecticut Retirement
Plans & Trust Funds, 568 U.S. 455 (2013); Erica P. John Fund, Inc.
v.

Halliburton

Co.,

563

U.S.

804

(2011).

In

light

of

the

substantial federal interest in the question presented, the United

3
States’ participation at oral argument could materially assist the
Court in its consideration of this case.
Respectfully submitted.
ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
FEBRUARY 2021

